                                  UNITED STATES OEPAltTMEN1' OF EDUCATION
                                        ornCE OF INSPECTOR GENERAL
                                                        REGIO" v
                                               III NORTJ1 CI<NI<1.. SUITE 9<0
                                                 C>1lCAGO, 'L.l.I:<OIS _


     Au<li.                                                                                                   lnv""8,uon
(liZ) 386,6S03                                                                                            (Jml$J -7$91




                                                                                CONTROL NU!\IBER
                                                                                  ED-OIGfA OS-BOOI9


        Dr. Anthony Dickcma, President
        Trinity Chri5tian College
        6601 West College Drive
        Palos Heights, Illinois 60463                                               SEP 17 2UU2
        near Dr. Diexcma:

        This Final Aud it Report presents the results of our Audit of Course Length at Trinity
        Christian College (Trinity). Our objective was to determine whether Trinity complied
        with the Higher Education Act (HEA) and applicable regu lations pertaining to course
        length for its Trinity Adult Degree Comp/eriOll Swclies (TRACS) program.

        We provided a draft of this report to Trinity. In its response, Trinily disagreed with the finding
        and recommendations. Based on the response, we did not make any revisions \0 the report. We
        summarized Trinity's response after the finding, lind II copy of Trin ity's response is provided as
        an auachment.

                                        AUDIT RESULTS

        We found that the actual number of instructional hours Trinity scheduled for the
        studentS who enrolled in its TRACS business program from JamJary 1999 through
        August 2000 did not provide the number of instructional hours required to mcet the
        St~tutory definihon of an academic year. The statutory defin ition of ~n academic yenr
        is incorporated in the regulations at Title 34 C.F.R. § 668.2(b). The regulations in this
        seclion that apply to institutions not using semester. trimester, or quarter systems are
        commonly known as the 12-Hour Rule_

        The 12-Hour Rule requires the equivulem of a( leasl 360 inslructional hours per
        academic year. An institution 's academic year and thc credit hours that a student
        enrolls in are used, in part, to determine the amoum of funds n student is eligible 10
        receive from the Title IV programs. We estimated thai Trinity overawarded and
        disbursed $11 1.061 in Title \V funds (0 the TRACS bu,iness progr~m students who
        enrolled from January 1999 through August 2000. For students who enrolled in the
        TRACS progr~m after August 2000, Trinity changed to a semester-based calendar for
Fi "al ,\ ud ·t   R~p<lr!                                                                     tJ).OlCIA 05. 11 0019


awarding and disbursing Ti tle IV funds . As a result. the 12-Hour Rule 110 longer
appli es.

No ntfrnl Institu tions l\Iust Prov id e a M inimulll of 360 Hours of Inst ructi onal
T ime in :m Acad emic Year

flEA Se<:lion 481 (a){2) states that the term acadc'nic year shaH:

        [RJequire a minimum of 30 weeks of instructional time. and. with respect to an
        undergrad uate course of study. shall require that during such min imum period of
        instructional time a fu ll-time student is expected to complete at least 24 semester
        or trimester hours or 36 quarter hours Jt an institution that measures program
        length in credit hours .. ,

The regulations at 34 C.r-.R, § 668.2(b) clarify what constitutes a week of instructional
time:

        [T lhe Secretary considers a week of instructional time 10 be any week in whieh at
        leas! one day of regularly scheduled instruction. exami n ~tions. or preparation for
        examinations occurs , .. For an educational program using credit hours but not
        using a semester. trimester, or quarter system. the Secretary considers a week of
        instll.lctional time to be any week in which al 1easl 12 hours of regularly
        ~heduled instruct ion. e.'(amination~. or pre paration ror e~::tmillntions occurs....


These regulatiuns. common ly know n as the 12-Hour Rule require the equivalent of
360 instruction al hours per academic year (12 hours per week for 30 weeks).
In:;tilutions we re require<! to comply with the 12-Hour Rule as of July I . 1995.

In the preamble to the 12-Hour Rule regulations published on November 29, 1994. the
Secretary explained that an insti tution with a program that meets less freque nUy than
12 hours per week would have tu meet for a sufficient number of weeks to result in the
required instructional hours. For c.'l:ample. if an in stitution decided to establish an
academic year for a program with classes that me t for 10 hours per week. the cl asses
would need to be held for 36 weeks to result in 360 hours.

D uring the period January 1999 through August 2000. Trinity did not have a wrinen
defined academic year for the TRACS business program. It measured the TR ACS
business program in credit hours, using a non-traditional academic calendar. Trin ity
offered the program in three non-standard terms that were 23. 25. and 29 wee ks in
length. for a tot al of 49 credit hours. It sched uled four-hour elasses, one day a week.
for a total of 308 hours t (23+25 +29 '" 7"1 weeks ~ 4 hours). Trinity consi dered the
students to be full time. Based on four schedul ed hours per week, to comply with the


I For bu,inc" <onor, 6. Trinity added 0.... week to ,he 23· wCCK quor,er. Therefore. studen" in 'his cohon wcre
scheduted for 3 t2     00urs of elas...""m   inmuction.
Fin. l Aud' t ReP9r1 	                                                           EI) ·OI GIAIlS · H001 9


12· Hour Rule. Ihe TRACS business program wuuld have nceded to be 90 weeks long
and provided 58 credil hours to equal a full 360·hour Hcademic year.

Trinity disbursed amounts to TRACS business students thm exceeded Ihe prorated
maximum amounls for an academic year allowed under the Federal Family Education
Loan (FFEL) and Pell Grant programs. We estimated thal Trinity overJwarded
$111 ,061 of Title IV funds to TRACS business students because it did not comply
with the 12·Hour Rule from January 1999 through August 2000.

• 	 FFE L Limits. Title 34 C.F.R. § 682.60J(d) stipulates thaI an institution may not
    certify a Joan application that would result in a oorrowerexceeding Ihe maximum
    annual loan limits specified in 34 CF.R. ~ 682.204. We cstimated thal $IOJ266
    in Fl-cL disbursements exceeded the prorated annuallOiln limits.

• 	 l'ell Grant Maximum. Title 34 Cr.R. § 69O.62(a) specifies 10m toe amoum of a
    student's Pell Grant for an academIC year is based upon schedulcs published by the
    Secretary for each award year. The paymcnt schcdule lislS thc ma~imum amount a
    student coutd receive during a full academic year. We estimated that $7.795 in
    PelJ Gram disbursements exceeded the prorated maximum amount allowed.

Because the TRACS busines, program did not meet the requirements of the I2-Hour
Rule from January 1999 through August 2000. Trinity improperly disbursed FFEL and
Pell Grant funds awarded \0 studenls who enrolled during that period. For students
who enrolled in the TRACS program after Augus.t 2000. Trinity changed to a semester
based calendar for awarding and disbursi ng Title tV funds. As a result. tlie 12·Hour
Rule no longer applies.

Rcco mmcnd a tions

We recommend that the Chief Operating Officcr for FSA require Trinity to:

! .I 	     Retllm 10 lenders FFEL funds of $lOJ,266 Ihal exceeded the promled annual
           loan limits for an ""ademic year.

1.2        Return to the Department of Education the PelJ Gram funds of $7.795 that
           exceeded the prOMed allowable awards .

I.J 	      Remit to the Department of Education the interest and special allowance
           costs incurred on federally subsidized 103/ls.

Auditec Comment.s

Trinity did nOt agree with our finding or rccorruncndations. It stated thst we should
have calculated aid eligibility for the period in question using standard terms instead of
12-Hour Rule methodology. By using stanoiud terms. students would be eligible for


                                                 ,

final Audit Rowrl                                                                 ED_OJG/AIlS_ROO19


their entirc loan amounts. and they would also be eligible for a larger percentage of
their Pcll Gr~nts , Trinity also stated that the TRACS curriculum has not changed since
the bcginmng of the program. and the students enrolled between January 1999 and
August 2000 completcd the same cour;(:work in the same amOllnl of time as currently
cnrolled students. The only difference between the methodology employed during the
period in question and its current methodology is how the weeks in the tenn were
represented on the calendar. The linding should focus on using current melhodology
to the period in question. Trinity submitted a copy of a leHer fmm an Institutional
Intprovement Specialist from the Office of Feder,,1 Student Aid. which it believes
veri fi~s that its procedures for awarding fi nancial aid nrc correct. It stated that Ihe
lnslitutionallmprovemenl Specialist paid specific attention to the TRACS pmgrnm.

OIG   Comme nt~


We reviewed Trinity's response and found no basis for changing the report. Whether
an institution uses standard or non -standard terms. not the nature of the curriculum. IS
a factor in determining whether the 12-Hour Rule applies. During the period January
1999 through Aligust 2000. Trinity did not measure the TRACS program using
standard semester. trimester. or quaner terms. Instead. Trinity used non-standard
tcnns Ihat were between 23 and 29 weeks in length. and it disbursed aid as if the
TRACS studenlS were full -time, Therefore, during the period in 'luestion. Trinity had
to comply with the 12-/lour Ru le. During our on-site fieldwork. Trinity's Director of
Financial Aid st.'lled that. when he took ollcr Ihe posi tion in Oclaber 2000. he realized
that Trinity's methodology for calculating and disbursing aid to TRACS program
~tudent s did not comply with the regulations_ He then changed to the current
methodology. The Director placed the TRACS program on a semester-based c~lendar.
and changed each ~mdent's enrollment stntus 10 pan time _ This statement and those
actions suppon our conclusion.

The leiter from the Instimtionallmprovement Specialist is nOl relevant. He performed
a technical assistance review on December 17. 20(l1. more than 15 months afterthe
period when the 12-Hour Rule was applicable to the TRACS program. The leller does
nOl indicate that his review eO"ered the period January 1999 through August 2000. or
that he reviewed the financlal aid disbursement methodology that Trinity used during
that period.

                                  BACKGROUND
Trinity is a four-year. degree-granting institution operating under a charter granted by
Ihe Stale of Illinois in 1959. Under the charter, Trinity has approval to award both the
Bachelor of Ans and the Bachelor of Science degrees , The Commission on
institutions of Higher Education of the North Cemral Association of Colleges and
Schools accredits Trinity_




                                                  •

fina l Aud'i   K~oor!                                                             E D-OIGIA05 -HOO I 9


Trinity started the TRACS program in January 1999 when the first business cohort
began auending class. The TRACS busines~ program is open to adults, <lge 25 or
older, who have completed a minimum of 45 semester hours with a cumulative grade
point average or 2.0 or better. Trinlly e:l:panded the T RACS program in September
2000 whcn the first TRACS education cohort began anending class. Trinity also
added J nursing program, but it h~d not yet enrolled any COhorts at the time of our on­
site work.

Students enrolled in the TRACS business program participated in the FFEL and Pell
Grant programs, The Department's records (National Student Loan Data System for
FFEL and Student Payment Summary for Pel! Grants) indicated thaI. from January
1999 through August 2000, Trinity Of lenders dis bursed S328,001 on behalf of
student, in the TRACS business program, consisting of $309,534 in FFEL and
$18.467 in Pell Gnlllt funds,

Title [V of the HEA of 1965, as amended, authorizes these program" and they are
governed by regulations contained in 34 C.F.R. Parts 682 and 690, respect ively, In
addition, Ihese programs arc subje<:tlO the provisions contained in the Studen!
Assislance General Provisions regulations (34 C F R Part (68), and Trinity must
compl y with the Institutional Eligibility regulations (34 C.F.R. Part 6(0) to participate
in these programs. Regulatol)' citations in the report are to the codifications revised as
of Ju ly I, 1998, and 1999,

                        AUDIT SCOPE AND METHODOLOGY

The objectivc of tile audit was to determine whether the T RACS program complied
with Ihe HEA and Tit le IV regulations pertaining to course length. We specifically
focused our review on the number of hours of instruction required under the 12-Hour
Rule.

To accomplish our objective, we reviewed Trini ty's wrillen policies and procedures.
program participation agreement with the Department, stude nt financial assistance
records, and single audit reports prepared by Trinity's independent public accountant.

We relied on computer-processed data Trinity ext racted from its financial assistance
database, We used award and disbursement data from the Department', NSLDS and
Siudent Payment SummaI)' to corroborate infonnation obtained from Trinity, We did
this by comparing T rinity's data with FFEL and Pell Grant disbursements for students
in the Department's records , We held discus,ions with Trinity officials to gain an
undcrntanding of the processes for administering Title IV funds. Based on these tests
and assessments, we concluded that the data Trinity provided were sufficient ly reliable
to usc in meeting the audit's objcctive,

The audit covered the period when the 12-Hour Rule applied to the TRACS program,
that is, Januury 1999 through August 2000. We performed thc on-site fieldwork in
                                                                                ED·QI(;/AOS·800 t9


Palos He ights, Illinois, during the period June 11,200 I, through June 22, 2001. We
had our nit conference on October 3. 2001. On April 19, 2oo2,:in auditor from OIG's
Advisory ~nd Assistance held a meeting with a Depanmelll of Education Senior Policy
Analyst to discuss 12·Hour Rule issues that affcctthis rcpon. Our audit was
performed in accordance with government auditing standards appropriate to tile scope
of the audit described above.


 a ,
90 weeks in
            =
                    ~= ~~~
                         "d                 aca~emi , year
                                               for it to meet the 360·hour
                                                                               .to
                                                                                 F "m
                                                                                   be

requirement for an academic year. Therefore. Trinity could nO! disburse Title IV funds
to students during a 77·week long progr~m (78-wC<'k program for business cohon 6)
that exceeded the proruted maximum annual amounts for an a<;ademic year allowed
under tile FFEL and Pel ] Grant programs.

We compared tile FFEL disbun;emenLS to the ~pplicilble prorated annuallo~n limilS
for subsidized and unsubsidized Stafford loans. SludllnlS were not eligible to receive
the amounts that Ilxcecded the hmits.

For Pell Grants. we considered each award ye~r separately. Trinity disbursed Pel!
Grnnt funds in each of the three non·standard tem1S. Each payment equaled one-half
the aWi!Td calculated for a full award year. To determine the allowable Pell Grunt
disbursements, we (I) divided the instructional houl'S scheduled dunng;l payment
period (if there was only one payment period in the award year) by 180 or the
instructional hours s<:heduled during the award year (if there were two payment
periods) by 360. and (2) multiplied the resulting percentage times the calculated
award.

            STATEMENT ON !\1ANAGEMENT CONTROLS

Our review disclosed that Trinity did not have controls in place to ensure that It
complied with the 12·Hour Rule for its TRACS program during the period Janl1~ry
1999 through August 2000. As a resuh. we did a 100 percent review of students in the
TRACS program. The AUDIT RESULTS section of this report discusses the lac\:: of
controls and its effects.




                                                 6

Final AuditRej>ort -                                                           ED~OIG/A05·B!)019




                       ADMINISTRATIVE MATTERS
Stai€::ments tharmaIiagenalpractices need improvements. as weUas other cone lusions and
recommendations in this'l-eport represent the opinions of the Offic,eof IilspectorGel1eral.
Oetemiinationsc;>fcorrectivcactioll to b~ taken wiU be made by the appl'Op1iate Depaltment of
Education officf~k

If you have any additional comments or information that you believe may have, a bearing on the
resQlption ofthisaudl.t. yClu·shoul~ .sen:d them directly to the follow'ing Education Department
bfficiakWho wil1considerthem before taking final Departmental aClion on the audit:

                       M$.TheresaBhaw. Chief Operati ng Officer
                       Federal Student Aid
                       U.s. Departn1~tof Education
                       Union Center PlazaBuildin g, Room 11201
                       830 Fitst Street. NoE.
                       Washington;n.C.20202

Office ofMa,na.gementand BlldgetCircula.r A~50.directs Federal agencies to expedite the
resoilltionor~pdit~by initiating timely action on the findings and recommendations contained
therein. Therefore. receipt bf your comments within 30 days would be gre(ltly appreciated.

I;i1a¢¢Qtd.itn¢~~ith~h¢Fte¢tl()II19flrif{)fn:iatiohAct (5 U.S,C.§-S52),
                                                                     reports issued by the Office
oflnspeetorGeneraLareavaiIabJe, jfrequested, to members of the press and general public tothe
exteTlOnformatirin therein is n()tsl,lbjecttoe-xetnptidnsin the Act.


                                      Sincerely,"




                                       ..   ... ....
                                         '-.­           .'   ,"



                                       Regional InspcctorGeneral­
                                       for Audit



Attachment




                                                    7
     FINA L AUDIT REPORT                             ED-OIG!A05B0019                                    ATTACHMENT 

                                                                                                        PAGEl of 4
    [ii!]TRlNITY
    CH RISTIAN COLLEGE.                   <Xn« cl tile   ~,ovo>,



    July 29. 2002

    Mr. Richard J. Dowd 

    Regional Inspector General for Audit 

    U.S. Department of Education 

    Office of Inspector General 

    III N. Canal Street, Suite 940 

    Chicago, IL 60606 


    Dear Mr. Dowd,                                                                                          •

    We received your draft on July I, 2002 and, accordingly, are offering OUf response within the 

    alloned 30 days. [n summary, we disagree with both the finding and the recommendations. 


    Findi ng
    We do no! agree with the finding thai we exceeded the prorated annual FFEL loan limits or the
    maximum amount allowed for Pel! Grant funds. TIle proper audit procedures would have been \0
    calculate aid eligibility for standard term operations during the period in question. Using this
    methodology instead of 12-Hour Rule methodology, you will find that all of these students were
    eligible for their entire loan amounts. Reworking the calendars to represent standard terms, all these
    students continued to be enroBed with at least six (6) credit hours per semester. Applying this
    methodology, you would also be able to calculate that these students were eligible for a larger
    percentage of their PeB Grams than if you used the 12-Hour Rule methodology. If necessary, we
    can demonstrate how students were eligible for loans and grants using our current ntethodology.

    The government established the 12-Hour Rule to protect against the abuse of federal funds . The rule
    was intended to stop programs thai were truly nonstandard in length from receiving federal funds
    that supported more than the cost of their education. Where federal regulations were ambiguous and
    clarification from the Department of Education could not be obtained, we were guided by the spirit
    and intem of those regulations. Trinity Christian Collegc is a reputable and accredited institution
    that provides a quality education for students working toward their bachelor's degree. Students are
    charged tuiLion thaL often requires them to seek federal assistance.

    Enclosed with this response you will find a copy of a letter from George West, Iostitutional
    Improvemelll Specialist, Office of Federal Student Aid (FSA), which verifies our correct procedures
    for awarding financial aid. In his technical assistance visit, he paid specific attention to our TRACS
    program. The OIG draft report also confirms that we have been operating correctly since August
    2000 using tne standard-term methodology. Our TRACS curriculum bas not changed since we'
    began the program in January 1999. Using our current methodology, our students can benefit from
    needed financial aid without violating any regulations. Consequently, students who attended the
    TRACS program between January 1999 and August 2000 completed the same course work in the
    same amount of time as our currently enrolled TRACS students. The only difference between the




          (j«)1 w.,.r College Drtve P.oIos Iidgh'" IL 60463 www.ttnty.e;Iu _   7OB.Z39 .4839   f"" 708.2.39.3969



L
                                                                                          PAGE 2 of 4



petiodinquCSPOI1:'and Qllrcurr~nt procedures is how the weeks in the term were repres~nted (m the
calendar. The finding should focus on using cllll-entmethodology applied to~e petiodin question.

When.lheTRACS prOgram began. we carefully and conscientiously researched the correct and
proper way· to award finanCial aid. We contacted other colleges, we .ask~d ISAC for theiradvi¢e,
anciweresel3):ch(!d fe<leraJ.(egul~ti()ns. We did nqtapprqach the decision tOC1ward tinancial aid in a
t~~.ull()rc~leSsfashl6n,.WefoUhqthatilierules.were ambiguous an~ could not get.ciarification
from the Departmcnt of Education. We established our proced~res ing()odfaith based on the best
irtf()nriati()~av8i1afjle.                     .

ReC()IllUlendatiQDS
~edon()tagreewitlitherecommendationsthat we retumfunds·to lenders, Pell Grant funds of
$7~795totheDePartmentofEducati(')n, .or remit tbe interest and special allowance costs. 001'
Ctu:tentproo~dur~Jor awarding ~nd disbursiIigTitle IVfund~     has proven that our prqgram{which
has not changed since its inception) is not subject to 12-HoutRule regulations; therefore; we did nOl
ovet"award~Jillli~.()r pel1Gr~~fuIids. We arenotobJigatedtoretumanYfunds.

We recommend thattheOfflceoflnspector GeneraL dismiss this case. The· aucilt has been a IO!ig
pro¢¢SsJs~ngjnMay2()Oltandwe havecooperil.ted willi1lgly byprovidingall·reques(oo records,
Iiosfutgscift members on our. campus. and supplying answers to a11 questions. This~ of course, ha<;
,*en agre'ltd~~lQftint~~d~olirceS. We believetltatto'continue thisprQcessWQuld diain both
dfgalliziiicihsofvriluablerespurcesan:d will divert our activities away from our goal.

!li,~(:)ffiC¢QfFe4etalSt1,l,Clenti\idlJas~SUI'c;:d us that our curr¢nt procedures and pOlidesfollow the
c6rreQt~gul~ti~rts,&,larhat, if consistently applied to the period·inques.tion; we have not over-
awarded financial ald~                     .

Welookforwardtoyourresponse,.and urge you to calI with questions or comments.




                                               "




~!:;l: Te6hni(;~lassis@l~Je,tterfr()IllQeotge West~
                                                       .   -
Cq:A.pfhony,r)iek~lIUl(Pr~id~nt).Petefl8Il;lstra (Vis:e~Pre~i~ntforA.9..vancement and         .
AdbUs~ipns).tQm.:V1Q~C1ri'(an(Vi<*Presidentforn\1sjll~s~Affairs and Filllluc¢),Blair IJ:~Y
(plreCtor.(jfTItACS),Ltike Egolf{Directbrot FinanciaLAid)~Scott Plaisier (AssistantDiiector of
Eml¢CihlAi«:1.)          ..     .
                                                                                                             PAGEJot4
,

                                 UNITED S CATES DEPARTMENT OF EDUCA n ON
                                                    Federal Student Aid 

                                            Case Managemen t Division - Northwest 

                                                       Chicago T~am 

                                                   III Nonb Canol Sttt«. Su,.. 1]0
                                                         MOIl SIOpS",~ 1009
                                                    Cllle",,,, III ,,,,,,, i\(I(J()6-7204
                                                     1'f1o<1<' (J 121 8M · 8767


         •                                       June 21, 2002

     Dr. AJ Anglin
     President
     Trinity Christian College
     6600 West College Drive
     Palos Heights, IL 60643-1775                                                           OPE 10: 001771


     Dear President Anglin:

     I want to thank you on behalf of Deoin Thorpe a nd myself for the opportun ity to visit Trinity
     Christian College on December 17, 2001. We enjoyed meeting with you and members of
     your staff. We were especially pleased with the time we spent with Luke Egolf and Scott
     Plaisler from the Financial Aid OffIce. They were both very professional and crea ted an
     environment that made it easy for Deoln and I to conduct our technical aSSistance
     intervention.

     The objective of the technical assistance site visit was to identify potential problem areas and
     provid e suggestions to improve institutional administration and accountability of federal
     funds. We began th e proce ss by conducting interviews with institutional administrative staff
     and managers both w ithin the financial aid office and in other offices. Our scope and focus
     was a Management Assessment of the institution'S administration of the Title IV Student
     Financial Assistance Programs. The team used the Management Assessment Survey
     Work sheet that wa s developed for use by institutions participating in the Quality Assu rance
     Program. Th is worksheet along with the interviews, assisted the team in identifying areas of
     administrative capability that Trinity Christian College should be cognizant of:

      All ocalion of Res Qurces _ Trinity Christian College should continue to allocate resources to
      departments involved in the administratior.of the Title IV Student Financial Assistance
      Programs. The Inst!tutlon needs to review the staffing levels, especially in the Financial Aid
      and Business OfflC8s and other departments involved directly in the administration of the
      Title IV Programs.

      Train i ng Opportunities - Trinity Christian College should identify and encourage training
      opportunities for staff involved In the administration of the Title IV programs. Currently, the
      Department of Education is offering training in the following areas; Tools For Ensuring
      Program Integrity, EDExpres$ Application Processing 101 and QA Tools Workshop,
      EDExpress Pell, FSA Coach and National Default Prevention Day.
      To register fOf lhese training opportunities please go to www.ifap.ed.gov and click on the
      FSA Training downlink.
                                                                                          PAGE 4 of 4
.
    Bevlewrequired efectrollic processes [RFMS COD. NSLDS}- Trinity Christian College
    shoufdconflnLJetod.eY~lqp~nd:useelectrOnictechnology to assist In the admi"istt;atlonof
    the Title IV Prograrns. TheinstituUon should qonducta review to ensure that its electronic
    processes meetthe Title IV admjnjstrattv~ capabilities requirements.

    PoUclesandProc.edures Manual- Trinity Christian College should conduct a review to
    en$QtethatWlitt~npoticesaf:ldpr6cedlJfeS exist between the offices involved in the
    adniihlstration ofthe Title IV progrCims. The institution should develop procedures that are
    q()n~i~J¢ntwith what is required tiythe institutions' various governing boards and agencies.
    These polices must be made avaflableto institutional personnel, current and prospective
    t;tudE:mt$, where apprqpriate.

    "heass,~~H3mentteamwc)Uldlikeloexpress appreciation to all that have contributed to this
    tec,hniCclI'assist~nce   effort to date, as weUas·encQurage·every stakeholder to play an actlve
    positive·rol~jnthe   months ahead,




    I•         .JrnprovementSp~cjaHst 

    Cnf~iig~pa~~·M~nagerrieJit T~am 

    [312]886-"8735
    gEJQrg~~west@eQ,~gpv
